Fiscal Year 2005 Financial Statement Audit


Report No. 06-01, November 15, 2005
Letter to Management                                                                             Page 3

                              Memorandum on Internal Control
Material Weaknesses

Information Security

During FY 2005, the OIG evaluated information security pursuant to the provisions
of the Federal Information Security Management Act.1 Our review disclosed
continued weaknesses in many areas of the RRB’s information security program.
Significant deficiencies in program management and access controls make the
agency’s information security program a source of material weakness in internal
control.

The RRB has undertaken the job of strengthening information security and has
implemented many corrective actions recommended by the OIG and other technical
specialists. However, the agency has not completed the corrective action needed to
eliminate the previously reported deficiencies in training and access controls that
were the basis for the OIG’s original finding of material weakness. In FY 2005, we
reported that the RRB is experiencing difficulty in achieving an effective, FISMA
compliant security program and reported two new significant deficiencies resulting
from delays in meeting FISMA requirements for risk assessments and periodic
testing and evaluation.

Performance Measures

The RRB needs to strengthen internal control over the measurement and
presentation of performance measures reported pursuant to the Government
Performance and Results Act of 1993 (GPRA). GPRA requires Federal agencies to
establish program goals, measure performance and report annually on their
accomplishments. OMB currently requires that these reports be published with
agency financial statements as part of an integrated performance and accountability
report.

Existing controls over the measurement of agency performance do not include
verification of data generated by automated systems. As a result, the RRB has not
adequately ensured that performance information presented as required
supplementary information has been recorded, processed, and summarized to
permit preparation of performance information in accordance with management’s
criteria.

During FY 2005, the OIG performed detailed tests of two performance indicators.
Audit tests disclosed that the RRB had materially overstated its performance with
respect to timeliness because claims had been misclassified and system generated


1
 “Fiscal Year 2005 Evaluation of Information Security at the Railroad Retirement Board,” OIG Report
#05-11, September 28, 2005




844 N RUSH STREET CHICAGO IL 60611-2092                                 Printed on recycled paper with soy ink
Letter to Management                                                                       Page 4


data did not include all processing time. 2 As a result, the agency has withdrawn
prior-year performance information for those two indicators and qualified its
presentation of current-year performance. Inaccuracies in other performance
indicators may have occurred and not been detected or disclosed to users of the
information.

In response to the OIG’s initial findings, the RRB implemented a management
attestation process to clarify responsibility for performance data; however, that
initiative did not adequately ensure that data would be verified or supporting
documentation retained.

    1. We recommend that the RRB ensure that the internal control process for
       performance indicators includes validation of data and retention of supporting
       documentation.


Actuarial Projection Process

The RRB needs to strengthen controls over the actuarial projection process that
supports the projections and estimates presented in the statement of social
insurance and related disclosures which are published with the agency’s financial
statements as required supplementary stewardship information.

During FY 2005, the OIG performed a detailed evaluation of controls over the
actuarial projection process that disclosed inadequacies in internal control over the
projections and related reports. 3 Although responsible management and staff have
described extensive controls over the preparation of projections, estimates and
reports, they have not formalized their policies and procedures, do not capture
evidence of the operation of controls and do not perform periodic evaluations of
compliance with internal requirements.

Implementation of prior OIG recommendations for corrective action is pending.

Reportable Conditions

Controls Over Compliance with the Prompt Payment Act

The RRB needs to strengthen controls to ensure compliance with the Prompt
Payment Act.

During FY 2005, the OIG performed a detailed evaluation of controls over
compliance with the Prompt Payment Act and concluded that existing systems and
2
 “Review of Customer Service Performance Measures For Timeliness of Initial Railroad
Retirement Annuity Payments,” OIG Report #05-05, May 17, 2005
3
  “Review of Internal Control Over the Actuarial Projection Process,” OIG Report #05-04, May 5, 2005
Letter to Management                                                                 Page 5


procedures had not been effective in ensuring that interest is paid to vendors in
accordance with the requirements. 4 The RRB does not identify all invoices on
which interest should be paid and does not pay the correct amount of interest
when a late payment is recognized. In addition, controls are not adequate to
ensure that required restrictions on early payment have been properly
implemented.

Many of the problems identified by our audit had been reported repeatedly in the
agency’s internal assessments of Prompt Payment Act compliance; however,
that process was not adequate to disclose the overall impact of errors or effect
changes in agency performance.

Implementation of prior OIG recommendations for corrective action is pending.

Accounting for Leases

The RRB does not have adequate controls to ensure that leases are properly
classified, justified and reported. Existing procedures do not include formal
evaluation and documentation of pre-contract review to identify capital leases
and ensure their proper recording and reporting. As a result, capital leases may
not be treated in compliance with established requirements for budgetary and
proprietary accounting.

During our review, we questioned the classification of an agency lease for a
mainframe computer processor that was being expensed as an operating lease
rather than capitalized. We were advised that existing agency documentation
would not support a response and additional research would be required. Capital
leases are treated differently than operating leases for both budgetary and
proprietary accounting.

We recommend that the Division of Acquisitions Management:

      2. implement a pre-contract review process to document agency justification,
         classification and financial reporting determination for lease agreements.
      3. complete its review of the lease questioned by the audit to determine
         whether it is a capital or operating lease and the effect of that determination
         on the accounting and reporting of that lease.




4
    Review of Compliance with the Prompt Payment Act,” OIG Report #05-06, June 15, 2005
Letter to Management                                                             Page 6


OTHER MATTERS INVOLVING INTERNAL CONTROL

Computation of Prompt Payment Act Interest

The Federal Financial System (FFS) is using incorrect interest rates to compute
interest under the Prompt Payment Act.

   4. We recommend that the Bureau of Fiscal Operations (BFO) implement
      procedural and/or programming changes to ensure that the proper interest
      rates are used.


Separation of Duties

The Office of Programs has not provided for adequate separation of duties and
supervisory review of taxes withheld from benefit payments. A single individual is
responsible for identifying periodic withholding, calculating a grand total, entering the
details of the transaction to the electronic payment system, and authorizing the
transfer of funds.

For calendar year 2003, the RRB paid the U.S. Treasury approximately $1 million
more in taxes than was actually withheld from benefit payments. The incorrect fund
transfers were self-authorized by the individual entering the data.

   5. We recommend that the Office of Programs take action to ensure proper
      separation of duties and supervisory review of tax transfer transactions.

Pending Tax Credits Not Recorded Timely

For calendar year 2003, the RRB paid the U.S. Treasury approximately $1 million
more than was actually withheld in taxes from individuals. At least $800,000 of the
overpayment was made in August of 2003. The RRB filed for a credit in March
2004 which was subsequently used to reduce the amount of taxes paid in
December 2004.

The Office of Programs, which is responsible for processing these transactions, did
not advise BFO of the pending credit until it had been used. As a result, the
agency’s FY 2004 financial statements understated the related receivables and
overstated benefit expense.

   6. We recommend that the Office of Programs establish a procedure for the
      timely communication of overpayments and underpayments to BFO.


Validation and Reconciliation of Personnel Record Changes
Letter to Management                                                        Page 7



RRB employee personnel records are maintained in the General Services
Administration (GSA) payroll system. Bureau of Human Resources (HR) regularly
updates employee records for various reasons such as step increases, promotions,
and other personnel actions. Employees can also update selected data in their
personnel records. The GSA system provides HR with reports documenting the
record changes or suspected errors. In response to these reports, HR validates the
changes or corrects the errors.

HR has not formalized its procedures for validating or correcting changes to
employee personnel records. In addition, HR does not retain copies of the reports
provided by GSA and does not retain documentation to support actions taken by HR
in response

We recommend that HR:

   7. develop written procedures to document their investigation procedures, and
   8. maintain records of the exceptions and results of investigation and
      reconciliation.
Letter to Management                                                            Page 8



Verification of Department of Labor Transfers

The RRB records funds transferred from the Department of Labor’s (DOL)
Unemployment Trust Fund without confirming the actual receipt of these funds in
RRB accounts.

Although BFO confirms the transfers-out from the DOL’s Unemployment Trust
Fund, the systems consulted indicate only that a transfer was made from DOL but
do not indicate the account receiving the funds. As a result, identification of errors
or discrepancies would be delayed until disclosed during the cash reconciliation
process.

   9. We recommend that the RRB confirm the receipt of transfers from the DOL’s
      Unemployment Trust Fund in the proper RRB accounts soon after the
      transfer occurs.


MANAGEMENT’S RESPONSE

Management has agreed to review our findings and recommendations and will
advise the OIG of their planned actions through the regular audit follow-up
process.
